No. 21In the

Supreme Court of the United States

GUY C. PATTERSON,
Petitioner,
v.
COMMISSIONER OF SOCIAL SECURITY,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

Guy C. Patterson
Petitioner Pro se
5644 Fairfield Drive
Gibsonia, Pennsylvania 15044
(724) 900-3862
jcpatt@consolidated.net

307137

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Federal employees’ rights are determined under
statutes which require that “all personnel actions affecting
employees or applicants for employment . . . in executive
agencies as defined in Title 5 . . . shall be made free from
any discrimination . . .” See 42 U.S.C. § 2000e-16(a) (race,
color, religion, sex, or national origin); 29 U.S.C. § 633a(a)
(age). Only last year, a commanding majority of this Court
held that this language denoted Congress’ intent to impose
a “stricter standard” upon the Federal Government than
upon private employers or state and local governments.
Babb v. Wilkie, this Court held, without dissent, that Title
VII permitted only “professionally developed ability tests”
that were “job-related.”
The question presented is:
Under the “stricter standard” applicable to the
Federal Government, does an executive agency articulate
a “legitimate, non-discriminatory reason” for its’
employment action where its’ proffered employment
practice provides no rational basis for the action because it
is neither professionally developed, based on a job analysis,
nor statistically valid?

ii
PARTIES TO THE PROCEEDING
The petitioner is Guy C. Patterson.
T he r e sp ondent i s K i lolo K ija k a z i , A c t i ng
Commissioner, U.S. Social Security Administration.

iii
RELATED CASES
Patterson v. Saul, No. 18-cv-00193, U.S. District
Court for the Western District of Pennsylvania. Judgment
entered February 13, 2020.
Patterson v. Commissioner Social Security, No.
20-2102, U.S. Court of Appeals for the Third Circuit.
Judgment entered February 5, 2021.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF appendices . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES AND REGULATIONS INVOLVED . . . . 2
STATEMENT OF THE CASE  . . . . . . . . . . . . . . . . . . . 3
A. Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 3
B. Proceedings Below . . . . . . . . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . . 6

v
Table of Contents
Page
I.

T H E U N I T E D S T A T E S C OU R T
OF A PPE A L S F OR T H E T H I R D
CIRCU I T H A S DECIDED A N
IMPORTANT FEDERAL QUESTION
I N A WA Y T H A T C O N F L I C T S
W I T H R E L E VA N T D E C I S IO N S
	of this Court. . . . . . . . . . . . . . . . . . . . . . . . . . 6
II. THE TOW ER A MENDMENT A ND
T H E R EGU L AT ION PER M I T S A
DISPARATE TREATMENT CLAIM.  . . . . . . 10
III. THE STRUCTURED INTERVIEW IS
A TEST.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT,
DATED FEBRUARY 5, 2021  . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — MEMORANDUM ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT OF
PENNSYLVANIA, FILED APRIL 2, 2020 . . . . . . 5a
A ppendix C — OPINION AND ORDER
of the UNITED STATES DISTRICT
COURT FOR THE W ESTERN
D I S T R I C T O F P E N N S Y LVA N I A ,
FILED FEBRUARY 13, 2020 . . . . . . . . . . . . . . . . . . 8a
APPENDIX D — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT,
DATED APRIL 6, 2021  . . . . . . . . . . . . . . . . . . . . . . 41a
Appendix e — statutes and other
	regulatory provisions . . . . . . . . . . . . . . . . 43a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Babb v. Wilkie,
140 S. Ct. 1168 (Apr. 6, 2020) . . . . . . . . . . . . . . .  6, 7, 10
Bart M. v. Bernhardt,
2021 EEOPUB LEXIS 74 (E.E.O.C.
January 14, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Bostock v. Clayton Cty.,
140 S. Ct. 1731 (U.S. 2020) . . . . . . . . . . . . . . . . . . . . . 13
Chadwell v. MSPB,
629 F.3d 1306 (Fed. Cir. 2010) . . . . . . . . . . . . . . . . . . 13
Dowd v. United States,
713 F.2d 720 (Fed. Cir. 1983) . . . . . . . . . . . . . . . . . . . 13
Engine Mfrs. Ass’n v.
S. Coast Air Quality Mgmt. Dist.,
541 U.S. 246 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Griggs v. Duke Power Co.,
401 U.S. 424 (1971)  . . . . . . . . . . . . . . . . . . . . . . . passim
Griggs v. Duke Power Co.,
420 F.2d 1225 (4th Cir. 1970) . . . . . . . . . . . . . . . . . . . 12
Lewis v. City of Chicago,
560 U.S. 205 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

viii
Cited Authorities
Page
Ricci v. DeStefano,
557 U.S. 557 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Smith v. City of Jackson,
544 U.S. 228 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
St. Mary’s Honor Center v. Hicks,
509 U.S. 502 (1993) . . . . . . . . . . . . . . . . . . . . . . . . 6, 8, 9
Tex. Dep’t of Hous. & Cmty. Affairs v. Inclusive
Cmtys. Project, Inc.,
576 U.S. 519 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
United States by Clark v. H. K. Porter Co.,
296 F. Supp. 40 (N.D. Ala. December 30, 1968) . . . . 12
Statutes and Other Authorities
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C. § 633a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5, 7
29 U.S.C. § 633a(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 10
42 U.S.C. § 2000e-16 . . . . . . . . . . . . . . . . . . . . . . . . . passim

ix
Cited Authorities
Page
42 U.S.C. § 2000e-16(a)  . . . . . . . . . . . . . . . . . . . . . . . . 2, 10
42 U.S.C. § 2000e-2(h) . . . . . . . . . . . . . . . . . . . . . . 2, 10, 12
5 C.F.R. § 300.101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 13
5 C.F.R. § 300.102(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 8
5 C.F.R. § 300.103 . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
5 C.F.R. § 300.103(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
5 C.F.R. § 300.103(b)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8
5 C.F.R. § 335.103(b)(3)  . . . . . . . . . . . . . . . . . . . . . . . . . 3, 8
5 C.F.R. § 300.103(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
5 C.F.R. § 300.104(c)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 3, 13
5 C.F.R. § 332.404 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
5 C.F.R. § 332.405 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
5 C.F.R. § 720.206 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
5 U.S.C. § 3313  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
35 Fed. Reg. 12,334 (August 1, 1970), § 1607.2 . . . . . . . 13

x
Cited Authorities
Page
110 Cong. Rec. 13504 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Acting Director of the U.S. Office of Personnel
Management, Memorandum for: Heads of
Executive Departments and Agencies . . . . . . . . . . 7, 8
Civil Rights Act of 1964, Title VII, § 703(a)(2) . . . . . . . 11
Decision of EEOC, CCH Empl. Prac. Guide, para.
17,304.53 (Dec. 2, 1966)  . . . . . . . . . . . . . . . . . . . . 7, 8, 9
The American Heritage Dictionary of the English
Language (3d Ed.), 1238 (1992) . . . . . . . . . . . . . . . . . 11

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Guy C. Patterson, pro se, respectfully
petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Third Circuit
in this case.
OPINIONS BELOW
The February 5, 2021 opinion of the court of appeals
was not designated for publication but is available at
834 Fed. Appx. 737 (3d Cir. 2021) and is set out in the
Appendix at pp. 1a-4a. The Third Circuit’s denial of
petitioner’s motion for reconsideration and rehearing en
banc is reproduced at Appendix 41a-42a. The opinion of the
District Court for the Western District of Pennsylvania
is available at 2020 U.S. Dist. LEXIS 25477 and is
reproduced at Appendix 8a-40a. The District Court’s
opinion denying petitioner’s motion to alter or amend
judgment is reproduced at Appendix pp. 5a-7a.
JURISDICTION
Petitioner invokes the jurisdiction of this Court
pursuant to 28 U.S.C. § 1254(1). The Court of Appeals
entered judgment on February 5, 2021. The court denied
a timely petition for rehearing and rehearing en banc on
April 6, 2021. Petitioner has timely filed this petition for
writ of certiorari within one hundred fifty (150) days of
the Court of Appeals judgment in accordance with this
Court’s order dated July 19, 2021.
This case arises under Title VII of the Civil Rights Act
of 1964, 42 U.S.C. § 2000e-16 , and the Age Discrimination

2
in Employment Act of 1967, 29 U.S.C. § 633a. Consequently,
the District Court had jurisdiction of this case pursuant
to 28 U.S.C. 1331 and the Third Circuit Court of Appeals
had jurisdiction pursuant 28. U.S.C. § 1291.
STATUTES AND REGULATIONS INVOLVED
Section 703(h) of Title VII of the Civil Rights Act
of 1964 (hereafter, “Title VII”), 42 U.S.C. § 2000e-2(h),
provides in pertinent part:
“Notw ithstanding any other provision of this
subchapter, . . . nor shall it be an unlawful employment
practice for an employer to give and to act upon the results
of any professionally developed ability test provided that
such test, its administration or action upon the results is
not designed, intended or used to discriminate because
of race, color, religion, sex or national origin.”
Section 717(a) of Title VII of the Civil Rights Act of
1964 (hereafter, “Title VII”), 42 U.S.C. § 2000e-16(a),
provides in pertinent part:
“A ll personnel actions affecting employees or
applicants for employment . . . in executive agencies as
defined in section 105 of Title 5 . . . shall be made free from
any discrimination based on race, color, religion, sex, or
national origin.”
Section 15(a) of the Age Discrimination in Employment
Act of 1967 (“ADEA”), 29 U.S.C. § 633a(a), provides in
pertinent part:

3
“A ll personnel actions affecting employees or
applicants for employment who are at least 40 years of
age . . . in executive agencies as defined in section 105 of
Title 5 . . . shall be made free from any discrimination
based on age.”
The U.S. civil service regulations that are relevant to
this petition, 5 C.F.R. 300.101, 5 C.F.R. 300.102(c), 5 C.F.R.
300.103, and 5 C.F.R. 300.104(c)(1), 5 C.F.R. 335.103(b)(3),
and 5 C.F.R. 720.206, are reprinted in Appendix D.
STATEMENT OF THE CASE
A. Factual Background
Petitioner is a fifty-six-year-old Caucasian male. Born
in June 1965, Petitioner was forty-eight (48) to fifty-one
(51) years of age at the time of the events at issue in this
matter. A licensed attorney, Mr. Patterson possesses an
undergraduate degree from the University of Virginia
and a law degree, with honors, from the University
of Pittsburgh School of Law. Petitioner began his
employment with the U.S. Social Security Administration
(hereinafter “SSA”) in September 2003 and, apart from
a period of employment with the Department of Veterans
Affairs between October 2005 and October 2007, has been
continuously employed by the agency since that time. In his
more than seventeen (17) years with the agency, Petitioner
has received nothing but “fully successful” performance
appraisals. In addition, Petitioner has received numerous
cash performance awards.
Between March 2014 and April 2017, Petitioner applied
for a total of twenty-one vacancies. In each instance,

4
Petitioner was qualified for the position and was placed
either on the SSA’s “best qualified” list or upon a register
of eligibles pursuant to 5 U.S.C. § 3313. In each instance,
Mr. Patterson was not selected for the position. In each
instance, SSA relied either in whole or in part on the
results of its so-called “structured interview.” In nineteen
(19) of the twenty-one (21) vacancies, SSA selected
candidates without Mr. Patterson’s protected classes.
In March 2014, Petitioner applied for a GS-14 position
as an Appeals Officer. Petioner was referred for an
interview by SSA Office of Personnel. Petitioner was not
selected. Instead, SSA selected sixteen (16) individuals,
all of whom were more than five (5) years younger than
Petitioner and all save one of whom were below the age of
forty. SSA asserted the results of its structured interview
as the reason for Petitioner’s non-selection.
In March 2013, Petitioner applied for a position as an
Administrative Law Judge (ALJ). Petitioner successfully
completed the OPM competitive examination. In August
2016, Petitioner’s name was forwarded to SSA for a
structured interview. Once again, Petitioner was not
selected. Instead, SSA selected, inter alia, an AfricanAmerican woman who attended a non-ABA approved
law school and received a deferred license suspension in
2008. SSA again asserted the results of its structured
interview as the reason for Petitioner’s non-selection.
The District Court also noted that Petitioner’s supervisor
would not recommend him, but omitted mention of the fact
the Petitioner had always received positive performance
appraisals.1
1. The EEOC recently decided that a negative job
recommendation coupled with a positive performance appraisal

5
Petitioner’s name remained on OPM’s register of
eligibles and in February 2017 his name was again
referred to SSA for consideration for an ALJ position.
Once again, Petitioner was not selected. Instead, SSA
selected two (2) individuals, both of whom were more than
five (5) years younger than claimant.
Consequently, Petitioner has been frustrated in
his efforts toward career advancement and has been
deprived of opportunites for increased salary and benefits.
Petitioner has also incurred substantial legal expenses.
B. Proceedings Below
After exhausting his administrative remedies,
Petitioner Patterson commenced this action in the Western
District of Pennsylvania, alleging that he was subject to
discrimination and retaliation in violation of Title VII
of the Civil Rights Act and the Age Discrimination in
Employment Act of 1967. (Appendix, p. 2a).
After a period of discovery, the District Court granted
SSA’s motion for summary judgment on all of petitioner’s
claims. (Appendix, p. 39a). Curiously, despite the complete
lack of record evidence that SSA complied with the
regulation in the least degree, the District Court declined
to decide the issue of SSA’s compliance or noncompliance
with 5 C.F.R. § 300.103, preferring to leave the matter an
“unadjudicated possibility.” (Appendix, pp. 7a, 29a-31a).

was inconsistent, rendering the former unworthy of credence.
Bart M. v. Bernhardt, 2021 EEOPUB LEXIS 74, 15-16 (E.E.O.C.
January 14, 2021).

6
On appeal, Petitioner argued that the district
court erred in granting summary judgment in several
respects. First, the District Court erred in applying an
incorrect legal standard to Petitioner’s discrimination
claims. Second, the District Court erred in applying
an incorrect legal standard in determining SSA had
articulated a legitimate, non-discriminatory reason.
Finally, the District Court misapplied the law to the facts
of Petitioner’s retaliation claim. (Appendix, p. 3a, n.1).
With respect to the issues presented by this petition,
the panel for the Third Circuit Court of Appeals affirmed
the District Court. (Appendix, p. 4a).
The Third Circuit denied Petitioners’ timely petition
for panel rehearing or rehearing en banc. (Appendix, p.
41a-42a).
REASONS FOR GRANTING THE PETITION
I.

The United States Court of Appeals
for the Third Circuit has decided
an important federal question in a
way that conflicts with relevant
decisions of this Court.

In finding Petitioner’s claims to be without merit,
the Third Circuit purportedly exempts the Federal
Government, the nation’s largest employer, from the
operation of the Tower Amendment, an express provision
of Title VII, as well as the operation of the civil service
regulations. Consequently, this finding contravenes
multiple decisions of this Court including Babb v. Wilkie,
St. Mary’s Honor Ctr. v. Hicks, and Griggs v. Duke Power
Co..

7
More than a half-century ago, this Court, without
dissent, held that Title VII permits only a “professionally
developed ability test” that is “job-related.” Griggs v.
Duke Power Co., 401 U.S. 424, 433-434 (1971). In so
holding, the Court was well aware that the EEOC had
interpreted the term “job-related” to require development
by a person in the business of test development, a job
analysis, and statistical validity. Decision of EEOC,
CCH Empl. Prac. Guide, para. 17,304.53 (Dec. 2, 1966)
cited in Griggs v. Duke Power Co., 401 U.S. 424, 430
n.6 (1971). Furthermore, Congress placed the burden of
demonstrating job-relatedness upon employers. Griggs
v. Duke Power Co., 401 U.S. 424, 432 (1971)(“Congress
has placed on the employer the burden of showing that
any given requirement must have a manifest relationship
to the employment in question.”). Only last year, a clear
majority of this Court held that the broad language of
both Title VII and the ADEA, as applied to the federal
sector, imposed a “stricter standard” upon the Federal
Government than upon private employers and state and
local governments. Babb v. Wilkie, 140 S. Ct. 1168, 1177
(Apr. 6, 2020).
Consistent with the foregoing, the civil service
regulations provide that all employment practices of
the individual federal agencies must be professionally
developed, based upon a job analysis, and statistically valid.
5 C.F.R. § 300.103(a), (b)(1), (c). There is little doubt as to
the meaning of the regulation. On July 31, 2020, the Acting
Director of the U.S. Office of Personnel Management
(hereinafter “OPM”) issued a memorandum to the heads
of the executive agencies reiterating that “[a]gencies are
required to use validated (i.e. job-related) assessment
tools when examining applicants for competitive service

8
positions.” 2 OPM extended the requirements to other
discriminatory bases as well as to positions covered by a
promotion plan such as the Appeals Officer vacancies here
at issue. 5 C.F.R. 300.102(c) (2021); 5 C.F.R. 335.103(b)(3)
(2021). The express purpose of the regulation is to ensure
the nondiscriminatory character of selection procedures
in the civil service. 5 C.F.R. 300.102(c) (2021). Indeed, the
regulation does little more than re-state the requirements
of “job-relatedness” first articulated by the EEOC in 1966
and for the same reason: employment practices that are
not job-related provide no rational basis for an agency’s
employment action. Cf. Decision of EEOC, CCH Empl.
Prac. Guide, para. 17,304.53 (Dec. 2, 1966); 5 C.F.R.
§ 300.103(b)(1) (2021).
In St. Mary’s Honor Center v. Hicks, a majority
of this Court held that to constitute a “legitimate,
nondiscriminatory reason” an employer’s proffered reason
must rebut the presumption of discrimination raised
by a plaintiff’s prima facie case. St. Mary’s Honor Ctr.
v. Hicks, 509 U.S. 502, 506-507 (1993). The regulation
requires the demonstration of a rational relationship
between performance in the position to be filled and
the employment practice used, which “shall include” a
showing that the employment practice was professionally
developed. 5 C.F.R. § 300.103(b)(1) (2021).
2. Available at:
https://www.chcoc.gov/sites/default/files/Implementation%20
of%20E.O.%2013932%3B%20Determining%20Qualifications%20
and%20the%20Use%20of%20Assessment%20Tools%20When%20
Filling%20Positions%20%281%29.pdf
Last accessed on September 1, 2021.

9
As the District Court correctly found SSA’s structured
interviews were devised by groups of attorneys leavened
by a single bureaucrat. Whatever else may be said of
attorneys, they are not “in the business or profession
of developing employment tests,” but rather they are
in the profession of practicing law. See, Decision of
EEOC, CCH Empl. Prac. Guide, para. 17,304.53 (Dec.
2, 1966). Nevertheless, absent any evidence of a rational
relationship between performance in the positions and the
employment practice used, the District Court finds that
SSA has articulated a “legitimate, non-discriminatory
reason” for its employment action, which finding the 3d
Circuit affirmed. In failing to give effect to the terms of 5
C.F.R. § 300.103, the 3d Circuit Court of Appeals permits
the Federal Government to assert an employment practice
bearing no rational relationship to job performance as a
“legitimate, non-discriminatory reason” in contravention
of this Court’s holding in St. Mary’s Honor Center v.
Hicks, 509 U.S. 502, 506-507 (1993).
The 3d Circuit then compounds its error by finding
that Petitioner is unable to prove a causal connection
with regard to his 2017 retaliation claim. With regard to
that claim, SSA relied upon the so-called “three- strike
rule” found at 5 C.F.R. § 332.405 (2021). The preceding
regulation, however, requires that each consideration
be based solely on merit and fitness. 5 C.F.R. § 332.404
(2021). A proferred reason bearing no rational relationship
to performance in the job, by definition, is not based on
merit and fitness and, therefore, is a legally insufficient
justification for invocation of the “three-strike rule.”
In failing to give effect to the terms of 5 C.F.R.
§ 300.103, the 3d Circuit Court of Appeals permits the

10
Federal Government to use pre-employment or promotion
tests that are neither “professionally developed ability
tests” nor “job-related” in contravention of this Court’s
holding in Griggs as well as the plain language of the
statute. Griggs v. Duke Power Co., 401 U.S. 424, 433-434
(1971); 42 U.S.C. § 2000e-2(h) (2021).
Finally, in failing to give effect to the terms of 5 C.F.R.
300.103, the 3d Circuit Court of Appeals holds the Federal
Government to a more lenient standard than that imposed
upon state and local governments in contravention of this
Court’s holding in Babb. Babb v. Wilkie, 140 S. Ct. 1168,
1177 (2020). In one sense, however, the 3d Circuit’s logic
is unassailable: to the extent that the Federal Courts are
unwilling or unable to decide issues presented to them,
then it must follow, a fortiori, that Petitioner is unable to
prove them. Such a rule, however, is scarcely in keeping
either with this Court’s holding in Babb or the plain
language of the statutes. Id.; 29 U.S.C. 633a(a) (2021); 42
U.S.C. 2000e-16(a) (2021).
II. T H E T OW E R A M E N DM E N T A N D T H E
R EGU L AT ION PER M I T S A DI SPA R AT E
TREATMENT CLAIM.
Much of the 3d Circuit’s cursory opinion is simply
inscrutable, not in its findings, but in the reasons
underlying them. Accordingly, Petitioner should like to
address two (2) points raised by the District Court, which
may have impacted the Court of Appeals’ reasoning.
The District Court posits that “[a]bsent any suggestion
that Defendant failed to follow the same selection process
for each candidate, Plaintiff ’s Amended Complaint

11
appears to implicate disparate impact.” With due respect
to the District Court, its observation misunderstands both
the plain language and the history of the statute.
“Statutory construction must begin with the language
employed by Congress and the assumption that the
ordinary meaning of that language accurately expresses
the legislative purpose.” Engine Mfrs. Ass’n v. S. Coast
Air Quality Mgmt. Dist., 541 U.S. 246, 252 (2004)(internal
quotation marks omitted). The introductory phrase
preceding the Tower Amendment reads “Notwithstanding
any other provision of this subchapter . . . .” The term
“notwithstanding” means “in spite of” and denotes
Congress’ intent that what follows is intended to qualify
other language within the statute. The American Heritage
Dictionary of the English Language (3d. Ed.), 1238 (1992).
Congress was equally clear with regard to the language
to be qualified: “any other provision of this subchapter.”
Accordingly, the Tower Amendment qualifies not only
the “otherwise adversely effect” language of § 703(a)(2)
wherein this Court has grounded its “disparate impact”
jurisprudence, but also the disparate treatment provisions
of the statute as well. Smith v. City of Jackson, 544 U.S.
228, 234-238 (2005)3
Furthermore, the Tower Amendment was part of
the original enactment of Title VII in 1964 and it is well3. It is true that Justice Scalia only concurred in Part III of
the Court’s decision in Smith v. City of Jackson, but it is equally
true that in his concurrence he specifically stated “As to that Part
[III], I agree with all of the Court’s reasoning, but would find it a
basis, not for independent determination of the disparate-impact
question, but for deferral to the reasonable views of the Equal
Employment Opportunity Commission. . . .” 544 U.S. at 243 (2005)
(Scalia, J., concurring in part and concurring in the judgment).

12
settled that Title VII, as originally enacted, forbade only
“disparate treatment” discrimination. Cf. 78 Stat. 257,
§ 703(h); Ricci v. DeStefano, 557 U.S. 557, 577 (2009)(“As
enacted in 1964, Title VII’s principal nondiscrimination
provision held employers liable only for disparate
treatment.”); Lewis v. City of Chicago, 560 U.S. 205, 211
(2010)(“As originally enacted, Title VII did not expressly
prohibit employment practices that cause a disparate
impact.”); Tex. Dep’t of Hous. & Cmty. Affairs v. Inclusive
Cmtys. Project, Inc., 576 U.S. 519, 550 (2015) (“Under any
fair reading of the text, there can be no doubt that the Title
VII enacted by Congress did not permit disparate-impact
claims.”)(Thomas, J., dissenting). Consequently, between
July 2, 1965, the effective date of Title VII, and March 7,
1971, the day prior to this Court’s opinion in Griggs, the
Tower Amendment necessarily described only a disparate
treatment prohibition. See, e.g., Griggs v. Duke Power Co.,
420 F.2d 1225, 1233 (4th Cir. 1970)(“The plaintiffs claim
that tests must be job-related in order to be valid under
§ 703(h).”) reversed by 401 U.S. 424 (1971); United States
by Clark v. H. K. Porter Co., 296 F. Supp. 40, 74 (N.D. Ala.
December 30, 1968)([Attorney General Ramsey Clark]
“further alleged during the trial that an aptitude test
cannot be regarded as a professionally developed ability
test within the meaning of section 703(h) of the title unless
and until it has been test validated.”) vacated by 491 F.2d
1105 (5th Cir. 1974). Nothing in either Griggs or its progeny
indicates this Court’s intention to supplant rather than to
supplement the Amendment’s original intention.
Finally, for the lower courts to ignore now the statute’s
original intent risks flouting the express will of Congress,
allowing the Federal Government to give any test,
“whether it was a good test or not, . . . . Discrimination

13
could actually exist under the guise of compliance with
the statute.” Griggs, 401 U.S. at 435, citing 110 Cong.
Rec. 13504 (remarks of Senator Case). Such a holding
further risks amending the statute outside of the normal
legislative process reserved for Congress. Bostock v.
Clayton Cty., 140 S. Ct. 1731, 1738 (U.S. 2020).
Even were it possible to read the Tower Amendment
as limited to disparate impact claims, the regulation and
its remedial provision are not so limited. Cf. 5 C.F.R.
§ 300.103 (2021); 5 C.F.R. § 300.104(c)(1) (2021).
III. THE STRUCTURED INTERVIEW IS A TEST.
The District Court theorizes, but does not find, that
structured interviews are not a test. The District Court’s
suggestion ignores decades of precedent interpreting
the regulation. Construing 5 C.F.R. § 300.101, the
Federal Circuit has held that “[a]n employment practice
is defined as any practice that affects “the recruitment,
measurement, ranking, and selection of individuals
for initial appointment and competitive promotion in
the competitive service.” Chadwell v. MSPB, 629 F.3d
1306, 1309 (Fed. Cir. 2010). See, also, Dowd v. United
States, 713 F.2d 720, 723 (Fed. Cir. 1983)(“The term
itself, “employment practices,” has a naturally broad
and inclusive meaning. . . .”). Furthermore, the EEOC
has defined a “test” to include “all . . . scored interviews”
such as the interviews here at issue since August 1970. 35
Fed. Reg. 12,334 (August 1, 1970), § 1607.2. Finally, the
OPM Memorandum of July 31, 2020, specifically includes
“structured interviews” within the ambit of the regulation.

14
CONCLUSION
For the foregoing reasons, this Court should grant
this petition and issue a writ of certiorari to review
the judgment and opinion of the Third Circuit Court of
Appeals.

Respectfully submitted,
Guy C. Patterson
Petitioner Pro se
5644 Fairfield Drive
Gibsonia, Pennsylvania 15044
(724) 900-3862
jcpatt@consolidated.net

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE THIRD
CIRCUIT, DATED FEBRUARY 5, 2021
UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT
No. 20-2102
GUY C. PATTERSON,
Appellant,
v.
COMMISSIONER OF SOCIAL SECURITY.
Submitted Under Third Circuit L.A.R. 34.1(a)
January 29, 2021
On Appeal from the United States District Court
for the Western District of Pennsylvania.
(D.C. Civil Action No. 2-18-cv-00193) District Court
Judge: Honorable Donetta W. Ambrose
Before: MATEY and JORDAN, Circuit Judges,
BOLTON*, Senior District Judge.
February 5, 2021, Filed

* The Honorable Susan Bolton, Senior United States District
Judge for the District of Arizona, sitting by designation.

2a
Appendix A
OPINION**
BOLTON, Senior District Judge.
We consider the claims of Guy C. Patterson, a 55-yearold white male, against the Social Security Administration
(“Agency”) alleging that, by failing to select him for three
job openings, the Agency: (1) discriminated against him
on the basis of his sex, race, and age, in violation of Title
VII of the Civil Rights Act of 1964 and the federal-sector
provision of the Age Discrimination in Employment Act
(“ADEA”); and (2) took retaliatory action against him in
violation of Title VII and the ADEA. Patterson filed his
lawsuit in the District Court for the Western District of
Pennsylvania. The District Court granted the Agency’s
motion for summary judgment and denied Patterson’s
cross-motion for summary judgment on all claims. It
also denied Patterson’s subsequent motion to alter or
amend this judgment. Patterson timely appealed. We have
jurisdiction pursuant to 28 U.S.C. § 1291.
I.

DISCUSSION

Patterson’s claims fail as a matter of law. “We exercise
plenary review over a district court’s [order entered on
motions for] summary judgment, and we apply the same
standard as the district court.” Bletz v. Corrie, 974 F.3d
306, 308 (3d Cir. 2020) (citation omitted). “Summary
judgment is appropriate where, construing all evidence in
** This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding precedent.

3a
Appendix A
the light most favorable to the nonmoving party, there is
no genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Id. (citations
and internal quotation marks omitted). Applying those
standards, we conclude that the record supports the
District Court’s judgment that the evidence is insufficient
as a matter of law to prove any of Patterson’s claims.
Patterson argues that a recent Supreme Court case, Babb
v. Wilkie, 140 S. Ct. 1168, 1177, 206 L. Ed. 2d 432 (2020),
changes this result, but fails to offer evidence that meets
even Babb’s lower causation standard. Babb, 140 S. Ct.
at 1177-78 (but-for causation not required to establish
liability for violation of ADEA’s federal-sector provision).1
Patterson cannot establish a prima facie case of
discrimination in violation of Title VII or the ADEA
because he has insufficient evidence of discriminatory
intent. See McDonnell Douglas Corp. v. Green, 411 U.S.
792, 802, 93 S. Ct. 1817, 36 L. Ed. 2d 668 (1973) (burdenshifting framework requires plaintiff to establish prima
facie case); Sarullo v. U.S. Postal Serv., 352 F.3d 789,
797 (3d Cir. 2003) (explaining that a prima facie case of
employment discrimination “requires a showing that:
(1) the plaintiff belongs to a protected class; (2) he/she
was qualified for the position; (3) he/she was subject to
an adverse employment action despite being qualified;
1. Patterson also raises the following issues: The District Court
erred in failing to consider the applicability of Ricci v. DeStefano, 557
U.S. 557, 129 S. Ct. 2658, 174 L. Ed. 2d 490 (2009) to his claims, and
the Agency failed to comply with an Office of Personnel Management
regulation, which Patterson argues is material to his employment
discrimination claims. We find none of these arguments have merit.

4a
Appendix A
and (4) under circumstances that raise an inference of
discriminatory action, the employer continued to seek out
individuals with qualifications similar to the plaintiff’s to
fill the position”). Even if he could make such a showing,
the Agency has articulated legitimate, nondiscriminatory
reasons for not selecting Patterson for each position,
including lower interview scores. See McDonnell Douglas
Corp., 411 U.S.at 802 (burden-shifting framework requires
employer to articulate legitimate, nondiscriminatory
reason for adverse employment action). Patterson’s
evidence is insufficient to show that any of these reasons
were pretextual. See id. at 804 (burden-shifting framework
permits plaintiff opportunity to show pretext).
Patterson also fails to produce evidence sufficient to
establish a causal connection between his non-selection
and retaliatory animus. See Moore v. City of Philadelphia,
461 F.3d 331, 340-41 (3d Cir. 2006) (“To establish a prima
facie case of retaliation . . . a plaintiff must tender evidence
that: (1) [he] engaged in protected activity . . . ; (2) “the
employer took an adverse employment action against
[him]; and (3) there was a causal connection between [his]
participation in the protected activity and the adverse
employment action.” (citation and internal quotation marks
omitted)).
The District Court correctly granted summary
judgment on all claims.
II. CONCLUSION
Because Patterson’s evidence cannot prove his claims,
we will affirm.

5a
Appendix B
APPENDIX B — MEMORANDUM
ORDER OF
THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF PENNSYLVANIA,
FILED APRIL 2, 2020
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF PENNSYLVANIA
C.A. No. 18-193
GUY C. PATTERSON,
Plaintiff,
v.
ANDREW M. SAUL,
Defendant.
MEMORANDUM ORDER
In this action, Plaintiff, an attorney proceeding pro se,
brought claims pursuant to Title VII of the Civil Rights
Act of 1964 (“Title VII”), 42 U.S.C. § 2000e, et seq., and
the Age Discrimination in Employment Act (“ADEA”), 29
U.S.C. § 621, et seq. Plaintiff, a white male born in June,
1965, alleged that his non-selection for the positions of
Appeals Officer and Administrative Law Judge were
the result of illegal discrimination due to age, race, and
sex, and retaliation for his protected activity. By Opinion
and Order dated February 13, 2020, this Court granted
Defendant’s Motion for Summary Judgment, and denied

6a
Appendix B
that of Plaintiff, and denied Plaintiff’s request for a
preliminary injunction. Before the Court are Plaintiff’s
Motion to Alter or Amend Judgment pursuant to Fed. R.
Civ. P. 59(e), Defendant’s Response thereto, and Plaintiff’s
Reply Brief.
“A party moving to alter or amend a judgment
pursuant to Rule 59(e) faces a difficult burden.” Anderson
v. Bickell, No. 14-1792, 2016 U.S. Dist. LEXIS 89510, at
*2 (M.D. Pa. July 11, 2016). “A motion for reconsideration
under Rule 59(e) must rely on one of three grounds: (1) an
intervening change in the law; (2) the availability of new
evidence; or (3) the need to correct clear error of law or
prevent manifest injustice.” Cottrell v. Good Wheels, 458 F.
App’x 98, 101 (3d Cir. 2012). “Because federal courts have
a strong interest in the finality of judgments, motions for
reconsideration should be granted sparingly.” Continental
Casualty Co. v. Diversified Indus. Inc., 884 F. Supp. 937,
943 (E.D. Pa. 1995).
Presently, Plaintiff contends that this Court incorrectly
considered the legal effect of 5 C.F.R. § 300.103 (“Section
100.103”), which led to incorrect findings of fact and
law, and that the Court failed to consider the totality
of the circumstances. Plaintiff’s Amended Complaint
alleged disparate treatment based on age, race, sex, and
protected activity. His claims, and Defendant’s Motion
seeking judgment thereon, thus required this Court to
consider the parties’ claims and submissions in light of
and in accordance with Title VII, the ADEA, McDonnell
Douglas Corp. v. Green, 411 U.S. 792, 802, 93 S. Ct.
1817, 36 L. Ed. 2d 668 (1973), Federal Rule of Civil

7a
Appendix B
Procedure 56, and applicable caselaw. Upon doing so, and
upon thorough consideration of all facts and argument
presented – including the unadjudicated possibility that
Defendant’s hiring process failed, in some respect, to
comply with Section 300.103 – the Court concluded that
the entry of judgment was appropriate.
Plaintiff has not demonstrated that he is entitled to
relief under Rule 59(e). Therefore, his Motion is denied.
AND NOW, this 2nd day of April, 2020, IT IS SO
ORDERED.
BY THE COURT:
/s/				
Donetta W. Ambrose
Senior Judge, U.S. District Court

8a
Appendix
C ORDER OF THE
APPENDIX C — OPINION
AND
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF PENNSYLVANIA,
FILED FEBRUARY 13, 2020
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF PENNSYLVANIA
C.A. No. 18-193
GUY C. PATTERSON,
Plaintiff,
v.
ANDREW M. SAUL,
Defendant.
February 13, 2020, Decided
February 13, 2020, Filed
OPINION AND ORDER
SYNOPSIS
In this civil action, Plaintiff, an attorney proceeding
pro se, brings claims pursuant to Title VII of the Civil
Rights Act of 1964 (“Title VII”), 42 U.S.C. § 2000e, et seq.,
and the Age Discrimination in Employment Act (“ADEA”),
29 U.S.C. § 621, et seq. Plaintiff is a white male, born
in June,1965, and currently in Defendant’s employ as a
Senior Attorney. Plaintiff’s claims are based on his non-

9a
Appendix C
selection for the position of Appeals Officer, in 2014, and
for Administrative Law Judge (“ALJ”) in 2016 and 2017.
Specifically, Plaintiff’s Amended Complaint asserts
the following: With respect to the Appeals Officer nonselection, he avers disparate treatment due to age, race,
and sex. With regard to the 2016 ALJ non-selection, he
alleges disparate treatment due to race and sex. With
regard to the 2017 ALJ non-selection, he alleges disparate
treatment due to age, race, and sex. His retaliation
claims allege that Plaintiff was not selected for the
2016 and 2017 ALJ positions in retaliation for his Equal
Employment Opportunity (“EEO”) filings challenging his
non-selections.
Before the Court are the parties’ cross-motions for
summary judgment on all Counts. In addition, Plaintiff
has moved for a preliminary injunction, seeking, inter alia,
to enjoin Defendant from filling any vacancies for ALJ and
Appeals Officers positions pending final judgment in this
suit. For the following reasons, Plaintiff’s Motions will be
denied, and Defendant’s granted.
OPINION
I.

SUMMARY JUDGMENT STANDARD

Summary judgment shall be granted if the pleadings,
depositions, answers to interrogatories, and admissions on
file, together with the affidavits, if any, show that there is
no genuine issue of material fact and that the moving party
is entitled to judgment as a matter of law. Fed. R. Civ. P.

10a
Appendix C
56(c). In considering a motion for summary judgment, the
Court must examine the facts in a light most favorable to
the party opposing the motion. Marino v. Indus. Crating
Co., 358 F. 3d 241, 247 (3d Cir. 2004); International Raw
Materials, Ltd. v. Stauffer Chem. Co., 898 F. 2d 946,
949 (3d Cir. 1990). The moving party bears the burden
of demonstrating the absence of any genuine issues of
material fact. United States ex rel. Quinn v. Omnicare
Inc., 382 F.3d 432 (3d Cir. 2004).
Rule 56, however, mandates the entry of judgment
against a party who fails to make a showing sufficient
to establish the existence of an element essential to that
party’s case, and on which that party will bear the burden
of proof. Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106
S. Ct. 2548, 91 L. Ed. 2d 265 (1986). The sum of the
affirmative evidence to be presented by the non-moving
party must be such that a reasonable jury could find in its
favor; it cannot simply reiterate unsupported assertions,
conclusory allegations, or suspicious beliefs. Groman v.
Township of Manalapan, 47 F.3d 628, 633 (3d Cir. 1995);
Saldana v. Kmart Corp., 260 F.3d 228, 232, 43 V.I. 361 (3d
Cir. 2001). A genuine issue for trial does not exist “unless
the party opposing the motion can adduce evidence which,
when considered in light of that party’s burden of proof at
trial, could be the basis for a jury finding in that party’s
favor.” J.E. Mamiye & Sons, Inc. v. Fidelity Bank, 813
F.2d 610, 618 (3d Cir. 1987) (Becker, J., concurring).
Importantly, “if the non-movant’s evidence is merely
speculative, conclusory, ‘or is not significantly probative,
summary judgment may be granted.’” Raczkowski v.

11a
Appendix C
Empire Kosher Poultry, 185 Fed. App’x 117, 118 (3d Cir.
2006) (quoting Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 249-50, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986)). “To
withstand a properly supported motion for summary
judgment, the nonmoving party must identify specific
facts and affirmative evidence that contradict the moving
party.” Jacobs v. Cumberland Cnty., No. 16-1523, 2019
U.S. Dist. LEXIS 92831, at *14-15 (D.N.J. May 31, 2019).
Bald speculations, therefore, are insufficient. Johnson
v. St. Luke’s Hosp., No. 06-3417, 2007 U.S. Dist. LEXIS
78746, at *25 (E.D. Pa. Oct. 23, 2007).
II. FACTUAL BACKGROUND1
A.

Appeals Officer Position

Plaintiff is a white male, born in 1965. On March
3, 2014, Defendant 2 issued a vacancy announcement for
1. Unless otherwise indicated, the facts stated in this Section
and elsewhere in the Opinion are undisputed. The parties’ factual
statements have been considered pursuant to Local Rule 56.1,
which provides as follows:
Alleged material facts set forth in the moving party’s
Concise Statement of Material Facts...which are
claimed to be undisputed, will for the purpose of
deciding the motion for summary judgment be deemed
admitted unless specifically denied or otherwise
controverted by a separate concise statement of the
opposing party.
2. For ease of reference, Governmental offices and entities
such as the Office of Personnel Management (“OPM”) are
encompassed by references to “Defendant.” A particular office
or entity, if pertinent, is specifically noted.

12a
Appendix C
multiple Appeals Officer positions. Plaintiff applied to
those positions on March 21, 2014. Defendant conducted
oral interviews, or “structured oral interviews,” for the
position. The interviews were conducted by two-person
panels, and all of the applicants referred by the Office of
Personnel were interviewed, except for two applicants
who withdrew or retired. The interviewers were given
written guidance on explaining the competencies related
to each question, as well as proficiency level examples,
explaining what would be considered poor, acceptable,
good, or excellent answers.
I n Ju n e , 2 014 , P l a i n t i f f w a s i n t e r v i e w e d
by Administrative Appeals Judge Craw ford and
Administrative Appeals Judge Gabriel DePass. For each
interview, the panel asked the same series of scripted
questions. Most of the questions asked candidates to
identify knowledge, skills, or experience relevant to
particular aspects or qualities of the Appeals Council
and Appeals Officer position. Three of the questions were
hypothetical questions, which asked the interviewee what
he or she would do as an Appeals Officer in handling a
hypothetical case or situation. At Plaintiff’s interview,
he was asked the same scripted questions as the other
candidates. Plaintiff testified that he has no reason
to believe that he was treated differently than other
interviewees, in terms of the questions asked and the
interview process. Plaintiff’s overall interview score
was 16 out of a possible 28, as he was graded as having
no “excellent” answers, three “good” answers, three
“acceptable” answers, and one “poor” answer. This score
was within the bottom 23 of the 93 candidates for the
position. Judge Crawford testified that Plaintiff’s age,

13a
Appendix C
race, and sex were not taken into account, which Plaintiff
disputes.
Follow ing 93 inter views, the Appeals Council
compiled a spreadsheet of the candidates and their
interview scores. It then continued the selection process
for the 42 top-scoring interviewees, for whom it obtained
references; each of them had interview scores of at least
20. As discussed supra, Plaintiff was not within that
group. Defendant then selected 16 candidates, 3 who had
interview scores higher than Plaintiff’s, as well as strong
references. Gerald Ray, the selecting officer, testified that
Plaintiff’s age, sex, marital status, parental status, and
race were not taken into account. Plaintiff denies this
claim, on grounds that the successful candidates all were
more than five years younger than Plaintiff (and only one
was over 40), 50/50 male/female, and “66/33 majority/
minority.” Plaintiff subsequently filed an EEO complaint,
claiming that his non-selection for the Appeals Officer
position resulted from discrimination because he was over
40, married, had children, and white.
B. 2016 ALJ Position
On or about March 5, 2013, Defendant issued a vacancy
announcement for an ALJ position. Plaintiff applied to the
position on March 15, 2013.
3. It is unclear whether 14 or 16 candidates were initially
selected. Defendant asserts, and Plaintiff does not dispute, that
14 were selected. Plaintiff asserts, and Defendant admits, that
the position was offered to 16 candidates. For present purposes,
the Court will accept Plaintiff’s factual assertion of 16 candidates.

14a
Appendix C
A lengthy process results in inter view teams
conducting interviews, completing a composite rating
sheet, and assigning “not recommend,” “recommend,”
or “highly recommend” to each candidate.4 In addition,
applicants underwent a three-phase Office of Personnel
Management (“OPM”) application process, which resulted
in a numerical rating. Following the completion of
interviews and background checks, a team of two Hearing
Office Chief ALJs conducted “folder reviews,” which
involved reviewing all of the candidates’ information,
including application records, background checks,
social media background checks, results of interviews,
and criminal and credit histories. The “folder review”
team then rated each candidate, as “not recommend,”
“borderline recommend,” “recommend,” or “highly
recommend.” The selecting official then considered all
the information, and decided which candidate was best
qualified for the vacancies. The selecting official made
determinations in accordance with applicable rules and
regulations, including the “rule of three,” or the “three
strike rule,” which can apply to candidates who have been
considered and not selected for three prior positions. 5
4. Plaintiff objects to consideration of the results of
Defendant’s hiring process, particularly the “structured oral
interview. He objects that the evidence is irrelevant and therefore
inadmissible. I reject this contention. There can be no question
that interviewers’ ratings are “relevant” within the meaning of
Federal Rule of Evidence 401.
5. The “three strike rule,” reflected in 5 C.F.R. § 332.405,
states that an appointing officer is not required to consider an
eligible who has been considered by him for three separate
appointments.

15a
Appendix C
Plaintiff was interviewed on August 18, 2016. Mark
Sochaczewsky, a white male, was the selecting official for
the pertinent vacancies in 2016. ALJs William Wallis and
Kurt Schuman conducted twenty interviews at the time.
ALJ Schuman was unaware of Plaintiff’s age and EEO
activity, and testified that Plaintiff’s sex and race were
not considered in the selection decision. ALJ Wallis also
testified that Plaintiff’s race, sex, age, and prior EEO
activity were not considered in the interview process.
Ratings for candidates were based on numerical
scores assigned by interviewers, after they discussed
the interview and reached a consensus. Interview
responses were weighed based on a set variety of factors,
including relevance of response and whether the question
was ultimately answered. ALJs Schuman and Wallis
rated Plaintiff’s verbal communication skills as “poor,”
indicating that he provided hesitant and unorganized
responses, was aggressive and argumentative, and
provided inappropriate emotional responses. Their
overall impression of Plaintiff was “poor,” noting that
he took a long time to provide responses that were not
often on point, and they had a hard time following him.
Their composite rating fell into the “not recommended”
category. Interviewer comments noted that Plaintiff
was “arrogant,” “verbose,” and that he “did not provide
meaningful or relevant answers to most questions.” The
“folder review” revealed that Plaintiff’s supervisor stated
that she would not recommend him; another reference
stated that he had “rather rough interpersonal skills.”
Mr. Sochazewsky testified that he considered Plaintiff
for the ALJ position in three geographical locations.

16a
Appendix C
Plaintiff points to the notation “3C” next to his name for
West Des Moines, IA and Morgantown, WV positions, and
posits that the notation means that he was “three struck”
and never considered for those positions. Selections took
place in September, 2016, and Plaintiff learned of his nonselection on or about November 20, 2016.
O f t he t went y c a nd idat e s i nt er v iewed, M r.
Sochaczewsky selected Monica Jackson (an AfricanAmerican female), Robert Kelly (a white male), and
William Stanley (a white male) for the positions. These
candidates’ respective ages in 2016 were 46, 55, and 58. The
interview evaluations and folder reviews of the successful
candidates show that Ms. Jackson, and Messrs. Kelly and
Stanley, all were placed in the “highly recommend” or
“recommend” category; their various skills and overall
impression were listed as “outstanding.” The record
reflects that the interviewers had many positive comments
about these candidates. Mr. Sochaczewsky testified that
Plaintiff’s non-selection was based on reasons such as his
“not recommended” rating, and lack of recommendation by
the folder reviewers. He testified that he did not consider
protected traits in his selection decisions.
On January 20, 2017, Plaintiff filed a formal agency
complaint regarding the 2016 ALJ non-selection, which
resulted in a finding of non-discrimination.
C.

2017 ALJ Position

Plaintiff remained eligible for future ALJ vacancies,
because he had previously been placed on the register

17a
Appendix C
of eligible candidates. In February, 2017, he was notified
that his name had been referred for consideration as an
ALJ. Defendant asserts that Mr. Sochaczewsky was the
selecting official for this position, while Plaintiff notes
that a selection document bears the signature of Kathleen
Scully Hayes as the selecting official in March 2017.6 Ms.
Scully-Hayes became aware of Plaintiff’s EEO activity on
January 6, 2017, due to her participation in a mediation.
Mr. Sochaczewsky testified that he became aware of
Plaintiff’s prior EEO activity when he received a witness
letter dated February 23, 2017, after selecting for the
2016 ALJ position but prior to selecting for the 2017 ALJ
position. Nonetheless, he testified that Plaintiff’s age, sex,
race, and prior EEO activity was not taken into account in
the selection process. Instead, Mr. Sochaczewsky testified
that Plaintiff’s non-selection resulted from Plaintiff’s prior
consideration for three ALJ positions and the “three strike
rule,” as well as his prior lack of recommendation and
OPM scores. Plaintiff became aware of his non-selection
on April 20, 2017. Instead, Defendant selected Raymond
Prybylski, a white male who was 45 in 2016, and Charles
Belles, a white male who was 43 in 2016 (again, Plaintiff
was 49 years old in 2016). Messrs. Prybylski and Belles
were rated “recommended” and “highly recommended,
respectively, and folder review results were “very good”
or “outstanding.”

6. A “Certificate of Eligibles” with the notation “Issue
Date 1/18/2017,” bears Ms. Scully-Hayes’ signature on the line
“Selecting Official Signature,” dated March 23, 2017. (Pl. App.
145-149).

18a
Appendix C
III.

APPLICABLE LAW
A.

Title VII and ADEA

A failure to hire claim under Title VII involves the
following proof: “a plaintiff must show that they (1) are a
member of a protected class; (2) applied for a job for which
they were qualified; and (3) were not hired for the job in
question.” McEady v. Camden Cnty. Police Dep’t, No. 161108, 2019 U.S. Dist. LEXIS 173274, at *21 (D.N.J. Oct.
7, 2019). A disparate treatment claim, such as Plaintiff’s,
also requires proof of discriminatory intent. See Karlo
v. Pittsburgh Glass Works, LLC, 849 F.3d 61, 69 (3d Cir.
2017). Thus, a prima facie case requires a showing that
“the adverse employment action occurred under some
circumstances that give rise to an inference of unlawful
discrimination.” Robinson v. N. Am. Composites, No. 158702, 2017 U.S. Dist. LEXIS 86223, at *13 (D.N.J. June
6, 2017).
A prima facie case of age discrimination requires a
showing that Plaintiff is forty years of age or older; the
defendant took an adverse employment action against
him; he was qualified for the position in question; and he
was replaced by another employee who was “sufficiently
younger to support an inference of discriminatory
animus.” Carter v. Mid-Atlantic Healthcare, LLC, 228
F. Supp. 3d 495, 501 (E.D. Pa. 2017) (quoting Burton v.
Teleflex Inc., 707 F.3d 417, 426 (3d Cir. 2013)). In an ADEA
case, the plaintiff must also demonstrate that age was
the “but for” cause of the employer’s adverse decision. Id.

19a
Appendix C
To establish a retaliation claim under either Title
VII or the ADEA, a plaintiff must demonstrate that he
engaged in a protected activity; his employer took adverse
action against him, either after or contemporaneously with
his protected activity; and there was a causal connection
between the protected activity and the adverse action.
Sylvester v. Unisys Corp., No. 97-7488, 1999 U.S. Dist.
LEXIS 3607, at *33 (E.D. Pa. Mar. 25, 1999).7
In any discrimination case, “the Court’s task ... is to
evaluate claims of invidious discrimination — it ‘is not to
assess the overall fairness of [the] employer’s actions.’”
Hernandez v. Borough of Fort Lee, No. 9-1386, 2010 U.S.
Dist. LEXIS 56622, at *20 (D.N.J. June 8, 2010) (quoting
Logue v. International Rehabilitation Associates, Inc.,
837 F.2d 150, 155 n.5 (3d Cir. 1988)). Negligence, innocent
error, or incompetence does not constitute discrimination.
See Chiang v. Schafer, No. 2000-04, 2008 U.S. Dist.
LEXIS 64654, at *122 (D.V.I. Aug. 20, 2008).
B. McDonnell Douglas
Plaintiffs’ claims are subject to the burden-shifting
scheme of McDonnell Douglas Corp. v. Green, 411
7. Plaintiff takes issue with Defendant’s reference to
the causation requirement identified in University of Texas
Southwestern Med. Ctr. v. Nassar, 570 U.S 338, 133 S.Ct. 2517,
2530, 186 L.Ed.2d 503 (2013), as this case involves 42 U.S.C.
2000e-16 and 29 U.S.C. 633(a), rather than a private sector Title
VII claim. I note that Courts within this District have relied on
Nassar in Section 2000e cases. Phillips v. Donahoe, No. 12-410,
2013 U.S. Dist. LEXIS 160537, at *80 (W.D. Pa. Nov. 7, 2013)

20a
Appendix C
U.S. 792, 802, 93 S. Ct. 1817, 36 L. Ed. 2d 668 (1973).
Thereunder, a plaintiff bears the prima facie burden of
demonstrating that he suffered an adverse employment
action “under circumstances that give rise to an inference
of unlawful discrimination.” Greenawalt v. Clarion
County, No. 11-2422, 459 Fed. Appx. 165, 2012 U.S. App.
LEXIS 1696, at **5 (3d Cir. Jan. 30, 2012).
If the plaintiff meets his prima facie case, the burden
of production shifts to the defendant to “articulate some
legitimate, nondiscriminatory reason” for its conduct.
McDonnell Douglas, 411 U.S. at 802. An employer satisfies
its burden of production by introducing evidence that would
permit the conclusion that there was a nondiscriminatory
reason for its actions. Fuentes v. Perskie, 32 F.3d 759,
763 (3d Cir. 1994). The employer need not prove that the
tendered reason actually motivated its behavior, and the
Court must accept the proffer without measuring its
credibility. St. Mary’s Honor Ctr. v. Hicks, 509 U.S. 502,
509, 113 S. Ct. 2742, 125 L. Ed. 2d 407 (1993); Texas Dep’t
of Community Affairs v. Burdine, 450 U.S. 248, 253,
67 L. Ed. 2d 207, 101 S. Ct. 1089 (1981). The employer’s
burden is “relatively light.” Miller v. Patterson Motors,
No. 3:2007-33, 2009 U.S. Dist. LEXIS 24482, at *50 (W.D.
Pa. Mar. 24, 2009).
Once an employer presents evidence of a legitimate
reason for its actions, the burden shifts back to Plaintiff
to show that the proffered reason is a pretext for
discrimination. Iadimarco v. Runyon, 190 F.3d 151, 158
(3d Cir. 1999). To do so, a plaintiff must submit evidence
from which a reasonable fact finder could either disbelieve

21a
Appendix C
the employer’s articulated legitimate reasons; or conclude
that discrimination was more likely than not a motivating
or determinative cause of the employer’s action. Carter,
228 F. Supp. 3d at 506; see also Fuentes, 32 F.3d at 762.
In other words, the plaintiff’s evidence “must allow a
factfinder to reasonably infer that each of the employer’s
proffered nondiscriminatory reason[] . . . was either a post
hoc fabrication or otherwise did not actually motivate the
employment action.” Fuentes, 32 F.3d at 764 (citations
omitted). “[T]o discredit the employer’s proffered reason
. . . the plaintiff cannot simply show that the employer’s
decision was wrong or mistaken, since the factual dispute
at issue is whether discriminatory animus motivated
the employer, not whether the employer is wise, shrewd,
prudent, or competent.” Id. at 765. “[A]t the pretext stage ..
the factual inquiry into the alleged discriminatory motives
of the employer has risen to a new level of specificity.”
Simpson v. Kay Jewelers, 142 F.3d 639, 646 (3d Cir. 1998).
“Differential treatment is, of course, the sine qua non
of a discrimination claim. Despite the burden-shifting
paradigm at play in such a case, the ultimate burden of
proving intentional discrimination rests, at all times, with
the plaintiff.” Reynolds v. Port Auth., No. 8-268, 2009
U.S. Dist. LEXIS 54760, at *27 (W.D. Pa. June 26, 2009).
Ultimately, therefore, the plaintiff must convince the
factfinder “’both that the [employer’s proffered] reason
was false, and that discrimination was the real reason.’”
St. Mary’s Honor Center v. Hicks, 509 U.S. 502, 113 S.
Ct. 2742, 2754, 125 L. Ed. 2d 407 (1993).

22a
Appendix C
IV. T H E PA RT I E S ’ SU M M A RY J U D GM EN T
MOTIONS
1.

Disparate Treatment — Race and Sex 2016
and 2017 ALJ Positions and Appeals Officer
Position

Plaintiff claims discrimination arising from disparate
treatment based on race and sex, in the context of his
non-selection for Appeals Officer, and both the 2016 and
2017 ALJ positions.
Plaintiff rests his Title VII discrimination claims,
based on his status as a white male, on a theory of disparate
treatment. Essential to Plaintiff’s prima facie case is an
inference of discrimination. Mitchell v. Cmty. Educ. Ctrs.,
Inc., No. 14-5026, 2016 U.S. Dist. LEXIS 59105, at *19
(E.D. Pa. May 2, 2016). A plaintiff may raise an inference
of discrimination “in a number of ways, including, but not
limited to, comparator evidence.” Golod v. Bank of Am.
Corp., 403 F. App’x 699, 702 n.2 (3d Cir. 2010). In order to
demonstrate discrimination using comparator evidence,
“comparator employees must be similarly situated in all
relevant respects.” Mitchell, 2016 U.S. Dist. LEXIS at
*22 (quoting Wilcher v. Postmaster Gen., 441 F. App’x
879, 882 (3d Cir. 2011)).
In this case, Plaintiff relies on comparator evidence.
He avers that the Appeals Officer position was offered
to sixteen people. Of the successful candidates, eleven
were white, and eight were men (including six white
men). Thus, 68.75% of the successful candidates were

23a
Appendix C
white, and 50% were men. Two white men and one black
woman were selected for the 2016 ALJ position; for the
2017 ALJ position, two white men were selected. These
statistics patently do not raise an inference that Defendant
discriminated against white men in selecting for these
positions — indeed, without more, they do not indicate
disparate treatment based on race or sex in the first
instance. 8 “[T]he comparator employees are of multiple
races and both genders, which does not support a claim
that race and gender were motivating or determinative
factors in the adverse employment actions.” Wilcher, 441
F. Appx. at 882. To the extent that Plaintiff relies on his
subjective assessment that he was more qualified than
the successful candidates for each position, this is not
persuasive. Holmes v. FAA, No. 98-5071, 1999 U.S. Dist.
LEXIS 14955, at *27 (D.N.J. Sep. 29, 1999).
Furthermore, Plaintiff has not shown that the
proffered comparators were similarly situated to Plaintiff.
8. Plaintiff asserts that Mr. Sochazcewsky’s selection history
— reflecting the selection of 49% female, and 12 % black candidates
— closely approximates the respective groups’ representation
in the general population. To Plaintiff, this is suspicious. To the
contrary, “it is ordinarily to be expected that nondiscriminatory
hiring practices will in time result in a work force more or less
representative of racial or ethnic composition of the population
....” See, e.g., Vuyanich v. Republic Nat’l Bank, 505 F. Supp. 224,
345 (N.D. Tex. 1980) The Court notes that the record contains no
information about the candidates who were not selected for the
positions to which Plaintiff applied. General population statistics
“lose their significance” when they are not “reasonable proxies
for the applicant pool.” Reynolds v. Sheet Metal Workers, 498 F.
Supp. 952, 968 (D.D.C. 1980).

24a
Appendix C
For each vacancy at issue, for example, Plaintiff was rated
“not recommended”, while other candidates — including
white men -- were rated “recommended” or “highly
recommended,” based on a variety of factors. The record
reflects other differences, as well. For example, one of the
successful candidates’ supervisors spoke highly of her, as
noted in her folder review; Plaintiff’s supervisor stated
that she would not recommend him. Such factors further
belie the allegation that Plaintiff was singled out for
differential treatment because he was a white male. The
mere fact that among the successful hires were women,
including non-white women, is woefully insufficient to
raise the required inference; the record is devoid of other
supporting evidence. There is no evidence that calls
into question the selecting and interviewing persons’
testimony that Plaintiff’s race and sex did not factor into
the decisionmaking process.
Assuming that Plaintiff has made a prima facie case
of race and sex discrimination, Defendant has met its
burden to produce legitimate, nondiscriminatory reasons
for Plaintiff’s non-selection. As recited supra, Defendant
proffers that Plaintiff was not selected for the Appeals
Officer position because of his composite proficiency
rating, which placed him in the bottom 20 of the 93
candidates interviewed. As regards the 2016 ALJ position,
Defendant points to Plaintiff’s lower interview ratings,
and the results of his folder reviews. Further, Defendant
proffers evidence that Plaintiff was not considered for the
2017 ALJ position as a result of his non-selection in 2016,
both due to “three strikes” and the reasons underlying his
2016 non-selection. The interviewer’s notes and guidelines

25a
Appendix C
support Plaintiff’s ratings. The successful candidates
received higher ratings and more positive reviews than
did Plaintiff. “Better performance in an interview is
unquestionably a legitimate, nondiscriminatory basis to
hire one candidate over another.” Formella v. Brennan,
817 F.3d 503, 514 (7th Cir. 2016); see also McCann v. Astrue,
293 F. App’x 848, 851 (3d Cir. 2008). Likewise, the “three
strike rule,”and the reasons underlying Plaintiff’s nonselection in 2016, meet Defendant’s burden. Thompson
v. Bridgeton Bd. of Educ., 613 F. App’x 105, 108 (3d Cir.
2015). Thus, the burden shifts again to Plaintiff, to show
that Defendant’s explanations are pretextual.
In order to show that Defendant’s explanations
regarding the 2017 ALJ position are pretextual, Plaintiff
points to two facts specific to his non-selection for the that
position: The notation “3C” next to his name, which he
asserts indicates that he was not previously considered
for three positions. This, he claims, demonstrates the
falsity of Defendant’s explanation that he was not selected
due to the “three strike rule.” He also points to the
appearance of Ms. Scully-Hayes’s name as selecting officer
on the list of eligibles for that position, rather than Mr.
Sochaczewsky’s. The significance of the latter is unclear,
as there is no particular evidence that suggests a nexus
between either person and discriminatory intent; a dispute
as to the identity of the selecting officer is not material
in this context, and doesn’t call Defendant’s explanation
into question. As to the former, Plaintiff does not explain
why the “3C” notation contradicts Mr. Sochaczewsky’s
contention that he was “three-struck” for the 2017 ALJ
position because he had already been considered for

26a
Appendix C
three positions, including the two annotated with a “3C.”
Plaintiff points solely to the existence of the notations, and
his own interpretation thereof. Further, the “three strike
rule” was not the sole proffered basis for Plaintiff’s nonselection; other reasons included the grounds for his initial
non-selection for the same position in 2016. As discussed
supra, Plaintiff has not demonstrated that those grounds
were pretexts for race or sex discrimination. Plaintiff’s
showing is not sufficient under Rule 56, Local Rule 56.1,
or McDonnell Douglas.
To support his claim, Plaintiff challenges only the
qualifications of Ms. Jackson, the African-American
female selected, along with two white males, for the 2016
ALJ position. He cites to Hamilton v. Geithner, 666 F.
3d 1344, 399 U.S. App. D.C. 77 (Fed. Cir. 2012), which
indicates that disparities alone are sufficient to raise
the required inference, only if the plaintiff is markedly,
substantially, or significantly more qualified than the
successful candidate. Id. at 1352. Plaintiff, for example,
compares his 18 years of legal experience with Ms.
Jackson’s 16 years; his 13 years of civil service with her
eight years; and his six performance awards with her
five. These facts relate to a single comparator, ignore
the contemporaneous white male hires, fail to account
for other selection considerations, and do not, overall,
represent marked disparities. Plaintiff also notes that Ms.
Jackson attended a non-ABA approved law school, had a
deferred license suspension in 2008, and that a year lapsed
between her law school graduation and admission to the
bar. Given the circumstances — including the outcomes of
the interview and review process -- these alleged “flaws”

27a
Appendix C
in Ms. Jackson’s resume do not establish pretext on the
basis of race or sex.
Plaintiff also points to his own purportedly superior
qualifications. He suggests, for example, that his
satisfactory performance appraisals and cash bonuses
during his years of employment with Defendant suffice
to demonstrate pretext. The mere existence of positive
feedback, however, does not give rise to the inference
that negative evaluations from another assessor were
pretextual. Hunter v. Rowan University, 299 Fed. Appx.
190, 194-95 (3d Cir. 2008). A person may perform well at his
job, but not be the preferred candidate for another, even
without illegal motive on the part of the employer. Plaintiff
asserts that the bulk of Ms. Jackson’s experience was as
a group supervisor, while his own was non-supervisory.
Why this experience should be deemed material, however,
is wholly unclear. Again, “the factual dispute at issue is
whether discriminatory animus motivated the employer,
not whether the employer is wise, shrewd, prudent, or
competent.” Fuentes, 32 F.3d at 765. To discredit an
employer’s explanation at the pretext stage, a plaintiff
must do more than argue that the employer’s action was
wrong. Wilcher, 441 F. App’x at 881. Here, the record
simply contains no suggestion of animus based on sex or
race.
Finally, Plaintiff devotes much of his energy to
challenging the manner in which Defendant developed its
hiring process and the process itself.9 Specifically, Plaintiff
9. Absent any suggestion that Defendant failed to follow the
same selection process for each candidate, Plaintiff’s Amended

28a
Appendix C
objects to Defendant’s use of a “structured oral interview.”
The essence of his argument is that Defendant concocted
a “spurious selection procedure” in order to hire more
female and black candidates. The process was spurious,
he posits, because the “structured oral interview” did
not comply with the policy that selection criteria be “jobrelated” and “professionally developed.” Plaintiff argues
as follows: “absent rigorous evidence of what, if anything,
the process proves about future job performance [such as
verbatim transcripts instead of interviewer notes], it is
little more than a license to discriminate.”
To the extent that Plaintiff suggests that the
subjective components of the hir ing process are
dispositive, I reject that proposition. The mere presence
of a subjective evaluation mechanism does not give rise
to an inference of pretext. “Title VII does not eliminate
any and all subjective considerations from employment
decisionmaking.” Villarias v. Illinois, No. 92 C 8420, 1995
U.S. Dist. LEXIS 11554, at *9 (N.D. Ill. Aug. 7, 1995).
Instead, a plaintiff must show a link between the subjective
mechanism and discriminatory intent.10 Whitaker v. TVA
Bd. of Dirs., No. 3:08-1225, 2010 U.S. Dist. LEXIS 37177,
at *21 (M.D. Tenn. Apr. 14, 2010). Certainly, subjective
processes cannot be used to “cover up” illegal animus. It
is undisputed here that the interviewers here asked the
Complaint appears to implicate disparate impact. Plaintiff
specifically disclaims a disparate impact claim, however.
10. In that vein, mere dislike does not “rise to the level of
discrimination unless the disparate treatment is motivated by
discrimination.” White v. Cleary, No. 09-4324 (PGS), 2012 U.S.
Dist. LEXIS 36694, at *22 (D.N.J. Mar. 16, 2012).

29a
Appendix C
same scripted questions to all candidates, and were given
written guidance regarding assessing the competencies
related to each question. Upon scrutiny, there is no
evidence suggesting a discriminatory motive on the part
of Defendant or any of the participants in the interview
process.
Next, I turn to Plaintiff ’s contentions that the
hiring processes failed to comply with regulatory and
policy requirements that they be “job-related” and
“professionally developed.” The applicable regulation
reads as follows: “There shall be a rational relationship
between performance in the position to be filled (or in the
target position in the case of an entry position) and the
employment practice used. The demonstration of rational
relationship shall include a showing that the employment
practice was professionally developed.” 5 C.F.R. § 300.103.
Plaintiff has not identified any evidence to suggest that
the alleged non-compliance of the facially neutral selection
processes bears any relation to his claims of disparate
treatment. It is undisputed that numerous attorneys
and persons with experience related to the job positions
were involved in developing the challenged processes.
The involved persons included Defendant’s Division Chief
Judges and former Executive Director, as well as JodieBeth Galos, an attorney with 25 years of experience in
employment law, as well as leadership experience in
human resources. Plaintiff questions the expertise of the
participants, but does not explain why it falls short. He
cites to no authority supporting his interpretation of the
regulatory phrase “professionally developed” as requiring

30a
Appendix C
particular expertise in designing pre-employment
selection procedures. Even if the interview development
was somehow insufficiently “professional,” the deficiency
does not call Defendant’s legitimate explanations into
question.
Further, Plaintiff’s assertion that the “structured
oral interview criteria” bore no actual relationship to the
employment at issue is not borne out by either the facts or
common sense.11 For example, it is undisputed that most
of the questions “asked candidates to identify knowledge,
skills, or experience relevant to particular aspects of the
Appeals Council and Appeals Officer position,” and that
three of the questions asked candidates about handling
a hypothetical case or situation reviewing an ALJ
decision. Plaintiff acknowledged that the questions were
“related to” the job, and were “on the nose as far as the
position....” Plaintiff’s demand for “rigorous” evidence of
job-relatedness puts the cart before the horse. He explains
neither his conclusory assertion of unrelatedness, nor its
connection to his allegations of discriminatory motive.
“[T]he mere fact that a different, perhaps better, method
of evaluation could have been used is not evidence of
11. Outside of the context of Section 300.103, one court
has noted: “The bulk of the cases which have addressed the
requirement that hiring criteria be shown to be job-related
have arisen in the context of a specific and usually inflexible
requirement that an applicant pass a particular test or possess
a particular degree or other objective measure of qualification.”
Vuyanich v. Republic Nat’l Bank, 505 F. Supp. 224, 369 (N.D.
Tex. 1980). This is true, as well, in the Section 300.103 context.
See, e.g., Fox v. Washington, 396 F. Supp. 504, 507 (D.D.C. 1975).

31a
Appendix C
pretext unless the method that was used is so deficient as
to transgress the Fuentes standard.” Kautz v. Met-Pro
Corp., 412 F.3d 463, 471 (3d Cir. 2005). The method used
here was not “so deficient” in that regard.
The case of McCann v. Astrue, 293 F. App’x 848 (3d
Cir. 2008), is generally instructive. There, our Court of
Appeals considered the District Court’s entry of judgment
against a white man employed by the Social Security
Administration, in a racial discrimination suit. Id. at 849.
Plaintiff had not been selected for a promotion that he
applied to, and a black man received the position, Id. at 851.
The decisionmaker told plaintiff “that given his extensive
experience and high performance, were he anything other
than a white male, he would have been promoted long ago.”
Id. Plaintiff also produced evidence that in other hiring
decisions, decisionmakers were told that they could not
hire white candidates. Id. The defendant explained, inter
alia, that plaintiff had performed poorly at his interview,
and lacked leadership skills. Id. The successful candidate
was selected, in part, because of his leadership ability.
Id. at 852. At the pretext stage, the stray remark by the
decisionmaker was deemed insufficient, and that decision
was affirmed. Id. The present evidence is weaker than
that presented in McCann, and the result in that case
supports today’s findings.
2.

Age Discrimination — 2017 ALJ Position and
Appeals Officer Position

I next address Plaintiff’s ADEA Claims. In the
first instance, if considered alone, I note concerns about

32a
Appendix C
Plaintiff’s prima facie case as to the 2017 ALJ position.
“Although no uniform rule exists, it is generally accepted
that when the difference in age between the fired employee
and ... her replacement is fewer than five or six years,
the replacement is not considered ‘sufficiently younger,’
and thus no prima facie case is made.” Gutknecht v.
SmithKline Beecham Clinical Lab., 950 F. Supp. 667, 672
(E.D. Pa. 1996); see also Carter, 228 F. Supp. 3d at 502
(collecting cases). Both successful candidates for the 2017
ALJ position were white males, ages 45 and 43 in 2016;
Plaintiff was 49 at that time. Nonetheless, I will proceed
under the assumption that Plaintiff has met his prima
facie case under the ADEA with respect to both the 2017
ALJ Position and the Appeals Officer position.
Because Defendant has proffered a legitimate
explanation for Plaintiff’s non-selection for both positions,
the analysis moves to the pretext stage. Again, this requires
Plaintiff to submit evidence from which a factfinder could
reasonably either disbelieve Defendant’s articulated
reasons, or believe that an invidious discriminatory reason
was more likely than not a motivating or determinative
cause of Defendant’s action. Fuentes v. Perskie, 32 F.3d
759, 765 (3d Cir. 1994). “While plaintiff need not provide
additional evidence to rebut an employer’s proffered
reasons for an adverse employment action, evidence
previously used to establish a prima facie case must
be sufficient to satisfy the ‘more stringent question of
whether the evidence is sufficient to establish pretext,
rather than whether the evidence is sufficient to establish
an inference of discrimination.’” Boice v. SEPTA, No.
05-4772, 2007 U.S. Dist. LEXIS 74566, at *38 (E.D. Pa.

33a
Appendix C
Oct. 5, 2007) (quoting Taylor v. Procter & Gamble Dover
Wipes, 184 F. Supp. 2d 402, 414 (D. De. 2002)).
As discussed supra, Plaintiff failed to demonstrate
pretext in the context of his Title VII claim based on the
2017 ALJ position. If the alleged illegal motive is age,
rather than race and sex, the outcome is the same.12 In
fact, it is not clear that the two selectees are appropriate
comparators, and the previous year, Defendant selected
two men older than Plaintiff for the same position. With
respect to the Appeals Officer position, all but one of the
16 successful candidates were under 40 years of age, and
the remaining successful candidate was 44. However, it
is undisputed that Defendant conducted 93 interviews for
the position, and then continued the process for 42 of those
candidates. Sixteen of those 42 were selected. Plaintiff
has not identified, for example, any information about the
77 other people who were not selected for the position;
further, he has not offered material information about the
qualifications of the successful candidates. There is no basis
for assessing these people as appropriate comparators,
and evidence about inappropriate comparators cannot
establish pretext. Jones v. Hosp. of Univ. of Pa., No. 03CV-4938, 2004 U.S. Dist. LEXIS 15711, at *23 (E.D. Pa.
Aug. 5, 2004). Ages of selectees alone, in a vacuum, are
simply insufficient to show pretext.13
12. The 2016 ALJ position, for which Plaintiff does not
claim age discrimination, provides additional context: the three
successful candidates for that position were 46, 55, and 58 years
old in 2016, while Plaintiff was 49.
13. The fact that this selection event “ballooned” the
percentage of under-40 employees in the work unit from 7.5% to

34a
Appendix C
3.

Retaliation — 2016 and 2017 ALJ Positions

Finally, Plaintiff claims that he was not selected for
the 2016 and 2017 ALJ positions in retaliation for his EEO
activity. It is undisputed that Mr. Sochaczewksy learned
of Plaintiff’s EEO activity by letter dated February 23,
2017. In addition, Ms. Scully-Hayes knew of his EEO
activity, because she attended a mediation on January 6,
2017. Plaintiff suggests that the timing of this knowledge
and his non-selection entitles him to judgment in his favor,
and precludes judgment in favor of Defendant.
Mr. Sochaczewsky, the selection officer for the 2016
ALJ position, testified that he was unaware of Plaintiff’s
prior EEO activity at the time. Plaintiff has presented
no evidence to contradict this testimony. “Activity about
which defendant knows nothing cannot motivate it to take
any action.” Graham v. Methodist Home for the Aging, No.
11-1416, 2012 U.S. Dist. LEXIS 117194, at *64 (N.D. Ala.
Aug. 20, 2012). This factor is fatal to Plaintiff’s claim that
his non-selection for the 2016 ALJ position was retaliatory.
In ter ms of the 2017 A LJ position, both Mr.
Sochaczewksy and Ms. Scully-Hayes were aware of
Plaintiff’s EEO complaints prior to his non-selection.
The mere fact that a defendant knew about a plaintiff’s
protected activity prior to the challenged action does
not raise a genuine issue about whether that defendant
acted with a retaliatory motive. Macknet v. Univ. of Pa.,
30.9% does not raise the spectre of age discrimination. The age
distribution in Defendant’s work unit prior to the Appeals Office
selection process is not suggestive of age discrimination.

35a
Appendix C
No. 15-5321, 2017 U.S. Dist. LEXIS 148948, at *18-19
(E.D. Pa. Sep. 14, 2017). “Were the rule otherwise, then a
disgruntled employee, no matter how poor his performance
... could effectively inhibit a well-deserved [adverse action]
by merely filing, or threatening to file, a discrimination
complaint.” Rolfs v. Home Depot U.S.A., Inc., 971 F. Supp.
2d 197, 217 (D.N.H. 2013) (quoting Pearson v. Mass. Bay
Transp. Auth., 723 F.3d 36, 42 (1st Cir. 2013)).
Plaintiff also points, however, to the temporal
proximity between decisionmakers’ awareness of his
protected activity and his non-selection. Our Court of
Appeals has made clear that “the mere fact that an adverse
employment action occurs after a plaintiff engages in
protected activity is insufficient to establish a causal link.”
McCann, 293 F. App’x at 852. Pertinent here, an employee
may establish the required nexus if he shows “unusually
suggestive” temporal proximity between the protected
activity and the adverse action. McEady v. Camden Cnty.
Police Dep’t, No. 16-1108, 2019 U.S. Dist. LEXIS 173274,
at *39 (D.N.J. Oct. 7, 2019). “[C]ases that accept mere
temporal proximity between an employer’s knowledge of
protected activity and an adverse employment action as
sufficient evidence of causality to establish a prima facie
case uniformly hold that the temporal proximity must be
very close.” Clark Cty. Sch. Dist. v. Breeden, 532 U.S. 268,
273, 121 S. Ct. 1508, 149 L. Ed. 2d 509 (2001). Absent an
“unusually suggestive” time frame, other circumstantial
evidence must exist to support causation. Thomas-Taylor
v. City of Pittsburgh, No. 13-164, 2014 U.S. Dist. LEXIS
114615, at *24 (W.D. Pa. Aug. 18, 2014), aff’d, 605 F.App’x
95 (3d Cir. 2015).

36a
Appendix C
Again, Mr. Sochazcewsky became aware of Plaintiff’s
protected activity by letter dated February 23, 2017. Ms.
Scully-Hayes became aware on January 6, 2017. Plaintiff’s
Amended Complaint alleges that he was notified that
his name had been referred for the 2017 ALJ position,
and he submitted requested paperwork, on February 13
and 17, respectively. Plaintiff’s non-selection occurred
on or about March 23 or 24, 2017. “The majority of the
case law supports a conclusion that [a one-month gap]
is not unusually suggestive.” Thomas-Taylor, 2014 U.S.
Dist LEXIS 114615, at *24. Moreover, I note that the
time frame here was dictated by the parameters of the
vacancy and hiring processes. The timing of an employer’s
decision to take adverse action, when wholly unfettered by
externally imposed time constraints, presents a different
and potentially more suspect situation. Again, Defendant
proffers that Plaintiff was not selected based on his earlier
non-selection for the 2016 ALJ position. The connection
between Plaintiff’s EEO activity and the non-selection
is thus attenuated, and the timing is not “unusually
suggestive” under the circumstances. Plaintiff offers no
additional evidence causally connecting his non-selection
to retaliatory animus.
Assuming that Plaintiff has succeeded in meeting his
prima facie case, Defendant has proffered legitimate,
non-discriminatory reasons for Plaintiff’s non-selection,
discussed supra. Thus, Plaintiff must demonstrate that
Defendant’s explanation was a pretext for retaliation. In
a retaliation case, a Plaintiff has a lesser burden at the
prima facie stage than at the pretext stage. Macknet, 2017
U.S. Dist. LEXIS 148948, at *29. Moreover, a Plaintiff

37a
Appendix C
cannot rely solely on temporal proximity to establish
pretext. Pierce v. City of Phila., No. 17-05539, 2018 U.S.
Dist. LEXIS 217216, at *41 (E.D. Pa. Dec. 28, 2018). The
chronology here, absent more, neither calls into question
Defendant’s explanations nor suggests retaliatory motive
under applicable standards. Plaintiff proffers no additional
evidence that would permit a reasonable jury to find
otherwise.
V. PLAINTIFF’S MOTION FOR PRELIMINARY
INJUNCTION
Before the Court is Plaintiff’s Motion for Preliminary
Injunction. Therein, Defendant contends that Defendant
has solicited applications for fifteen Appeals Officer
positions. Plaintiff seeks an injunction enjoining Defendant
from filling any ALJ or Appeals Officer positions absent
proof of compliance with 5 C.F.R. 300.103; from taking
formal or informal disciplinary action against Plaintiff in
retaliation for this litigation; and from “failing or refusing
to treat Plaintiff in the manner in which his position and
job performance warrant.” Because summary judgment
motions been adjudicated, no evidentiary hearing is
required.
Our Court of Appeals has warned that “the dramatic
and drastic power of injunctive force may be unleashed
only against conditions generating a presently existing
actual threat.” Holiday Inns of America, Inc. v. B & B
Corp., 409 F.2d 614, 618, 7 V.I. 45 (3d Cir. 1969). As Plaintiff
states, issuance of a preliminary injunction requires him
to demonstrate: 1) a reasonable likelihood of success on the

38a
Appendix C
merits; 2) a likelihood of irreparable injury; 3) whether an
injunction would harm the defendant more than denying
relief would harm the plaintiff; and 4) whether granting
relief would serve the public interest. K.A. ex rel. Ayers v.
Pocono Mt. Sch. Dist., 710 F.3d 99, 105 (3d Cir. 2013). Given
the outcome of the parties’ summary judgment Motions,
Plaintiff has not established a reasonable likelihood of
success on the merits, and injunctive relief will be denied.
CONCLUSION
In conclusion, assuming that Plaintiff has met his
prima facie case for all claims, he has not proffered
evidence from which a reasonable fact finder could either
disbelieve Defendant’s articulated legitimate reasons, or
conclude that an illegal animus was more likely than not
a motivating or determinative cause of his non-selection
for any position at issue. It may well be that Plaintiff
would make an excellent ALJ or Appeals Officer, and
that Defendant’s failure to select Plaintiff for the three
positions at issue was ill-advised. Even so, a court cannot
rule on the wisdom of an employer’s decisions. Instead,
this Court’s role is limited to assessing the presence of
illegal discrimination. As Plaintiff points out, a desire for
diversity is not a defense to a discrimination claim; nor
does the mere presence of diversity, however, suggest
discrimination.
Here, viewing the facts in the light most favorable
to the non-moving parties, there is no genuine issue of
material fact that precludes the entry of judgment in
Defendant’s favor, or entitles Plaintiff to judgment in his

39a
Appendix C
favor. Plaintiff’s Motion will be denied, and Defendant’s
granted as to all Counts. For similar reasons, Plaintiff’s
Motion for Preliminary Injunction will be denied. An
appropriate Order follows.
BY THE COURT:
/s/ Donetta W. Ambrose		
Donetta W. Ambrose
Senior Judge, U.S. District Court
Dated: February 13, 2020

40a
Appendix C
ORDER OF COURT
AND NOW, this 13th day of February, 2020, it is
hereby ORDERED, ADJUDGED, and DECREED that
Plaintiff’s Motion for Summary Judgment is DENIED,
and Defendant’s is GRANTED, and that Plaintiff’s Motion
for Preliminary Injunction is DENIED.
BY THE COURT:
/s/ Donetta W. Ambrose		
Donetta W. Ambrose
Senior Judge, U.S. District Court

41a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT, DATED APRIL 6, 2021
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-2102
GUY C. PATTERSON,
Appellant,
v.
COMMISSIONER SOCIAL SECURITY.
(W.D. Pa. No. 2-18-cv-00193)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, A MBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, Circuit Judges, and
BOLTON*, Senior District Judge
The petition for rehearing filed by appellant in the
above-entitled case having been submitted to the judges
who participated in the decision of this Court and to all
* The Honorable Susan Bolton, Senior United States District
Judge for the District of Arizona, sitting by designation. Judge
Bolton’s vote is limited to panel rehearing only.

42a
Appendix D
the other available circuit judges of the circuit in regular
active service, and no judge who concurred in the decision
having asked for rehearing, and a majority of the judges
of the circuit in regular service not having voted for
rehearing, the petition for rehearing by the panel and the
Court en banc, is DENIED.
				BY THE COURT
				s/ Kent A. Jordan
				
Circuit Judge
DATE: April 6, 2021

43a
E
APPENDIXAppendix
E — STATUTES
AND
OTHER REGULATORY PROVISIONS
5 C.F.R. 300.102(c) (2021).
This subpart is directed to implementation of the policy
that competitive employment practices:
(c) Be developed and used without discrimination
on the basis of race, color, religion, sex (including
pregnancy and gender identity), national origin,
age (as def ined by the Age Discrimination in
Employment Act of 1967, as amended), disability,
genetic information (including family medical history),
marital status, political affiliation, sexual orientation,
labor organization affiliation or nonaffiliation, status
as a parent, or any other non-merit-based factor, or
retaliation for exercising rights with respect to the
categories enumerated above, where retaliation rights
are available.

44a
Appendix E
5 C.F.R. 300.103 (2021):
(a) Job analysis. Each employment practice of the
Federal Government generally, and of individual
agencies, shall be based on a job analysis to identify:
(1) The basic duties and responsibilities;
(2) The knowledges, skills, and abilities required
to perform the duties and responsibilities; and
(3) The factors that are important in evaluating
candidates. The job analysis may cover a single
position or group of positions, or an occupation
or g roup of occ upat ions , hav i ng com mon
characteristics.
(b) Relevance.
(1) There shall be a rational relationship between
performance in the position to be filled (or in the
target position in the case of an entry position) and
the employment practice used. The demonstration
of rational relationship shall include a showing
that the employment practice was professionally
developed. A minimum educational requirement
may not be established except as authorized under
section 3308 of title 5, United States Code.
(2) In the case of an entry position the required
relevance may be based upon the target position
when

45a
Appendix E
(i) The entry position is a training position or
the first of a progressive series of established
training and development positions leading to
a target position at a higher level; and
(ii) New employees, within a reasonable period
of time and in the great majority of cases, can
expect to progress to a target position at a
higher level.
(c) Equal employment opportunity and prohibited
forms of discrimination. An employment practice must
not discriminate on the basis of race, color, religion,
sex (including pregnancy and gender identity), national
origin, age (as defined by the Age Discrimination
in Employment Act of 1967, as amended), disability,
genetic information (including family medical history),
marital status, political affiliation, sexual orientation,
labor organization affiliation or nonaffiliation, status
as a parent, or any other non-merit-based factor,
or retaliation for exercising rights with respect to
the categories enumerated above, where retaliation
rights are available. Employee selection procedures
shall meet the standards established by the “Uniform
Guidelines on Employee Selection Procedures,” where
applicable.

46a
Appendix E
5 C.F.R. 300.104(c)(1) (2021):
(c) Complaints and grievances to an agency.
(1) A candidate may file a complaint with an agency
when he or she believes that an employment
practice that was applied to him or her and that is
administered by the agency discriminates against
him or her on the basis of race, color, religion, sex
(including pregnancy and gender identity), national
origin, age (as defined by the Age Discrimination
in Employment Act of 1967, as amended), disability,
genetic information (including family medical
history), or retaliation for exercising rights with
respect to the categories enumerated above, where
retaliation rights are available. The complaint
must be filed and processed in accordance with the
agency EEO procedures, as appropriate.

47a
Appendix E
5 C.F.R. 332.404 (2021):
An appointing officer, with sole regard to merit and fitness,
shall select an eligible for:
(a) The first vacancy from the highest three eligibles on
the certificate who are available for appointment; and
(b) The second and each succeding vacancy from
the highest three eligibles on the certificate who are
unselected and available for appointment.

48a
Appendix E
5 C.F.R. 332.405 (2021):
An appointing officer is not required to consider an
eligible who has been considered by him for three separate
appointments from the same or different certificates for
the same position.

49a
Appendix E
5 C.F.R. 335.103(b) (2021):
(b) Merit promotion requirements —
(3) Requirement 3. To be eligible for promotion or
placement, candidates must meet the minimum
qualification standards prescribed by the Office
of Personnel Management (OPM). Methods of
evaluation for promotion and placement, and
selection for training which leads to promotion,
must be consistent with instructions in part 300,
subpart A, of this chapter. Due weight shall be
given to performance appraisals and incentive
awards.

